<html>
<title> - THE STATE DEPARTMENT'S REWARDS PROGRAMS: PERFORMANCE AND POTENTIAL</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
   THE STATE DEPARTMENT'S REWARDS PROGRAMS: PERFORMANCE AND POTENTIAL 

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 7, 2012

                               __________

                           Serial No. 112-129

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

73-278 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 














                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa<greek-l>
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey--
EDWARD R. ROYCE, California              deceased 3/6/12 deg.
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
RON PAUL, Texas                      ELIOT L. ENGEL, New York
MIKE PENCE, Indiana                  GREGORY W. MEEKS, New York
JOE WILSON, South Carolina           RUSS CARNAHAN, Missouri
CONNIE MACK, Florida                 ALBIO SIRES, New Jersey
JEFF FORTENBERRY, Nebraska           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       DENNIS CARDOZA, California
GUS M. BILIRAKIS, Florida            BEN CHANDLER, Kentucky
JEAN SCHMIDT, Ohio                   BRIAN HIGGINS, New York
BILL JOHNSON, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
DAVID RIVERA, Florida                CHRISTOPHER S. MURPHY, Connecticut
MIKE KELLY, Pennsylvania             FREDERICA WILSON, Florida
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             WILLIAM KEATING, Massachusetts
JEFF DUNCAN, South Carolina          DAVID CICILLINE, Rhode Island
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                 EDWARD R. ROYCE, California, Chairman
TED POE, Texas                       BRAD SHERMAN, California
JEFF DUNCAN, South Carolina          DAVID CICILLINE, Rhode Island
BILL JOHNSON, Ohio                   GERALD E. CONNOLLY, Virginia
TIM GRIFFIN, Arkansas                BRIAN HIGGINS, New York
ANN MARIE BUERKLE, New York          ALLYSON SCHWARTZ, Pennsylvania
RENEE ELLMERS, North Carolina
















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Robert A. Hartung, Assistant Director, Threat Investigations 
  and Analysis Directorate, Bureau of Diplomatic Security, U.S. 
  Department of State............................................     8
Ms. M. Brooke Darby, Deputy Assistant Secretary, Bureau of 
  International Narcotics and Law Enforcement Affairs, U.S. 
  Department of State............................................    15
The Honorable Stephen J. Rapp, Ambassador-at-Large, Office of 
  Global Criminal Justice........................................    24

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Edward R. Royce, a Representative in Congress from 
  the State of California, and chairman, Subcommittee on 
  Terrorism, Nonproliferation, and Trade: Prepared statement.....     3
Mr. Robert A. Hartung: Prepared statement........................    10
Ms. M. Brooke Darby: Prepared statement..........................    17
The Honorable Stephen J. Rapp: Prepared statement................    26

                                APPENDIX

Hearing notice...................................................    42
Hearing minutes..................................................    43


   THE STATE DEPARTMENT'S REWARDS PROGRAMS: PERFORMANCE AND POTENTIAL

                              ----------                              


                        WEDNESDAY, MARCH 7, 2012

              House of Representatives,    
                     Subcommittee on Terrorism,    
                           Nonproliferation, and Trade,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:10 p.m., in 
room 2172, Rayburn House Office Building, Hon. Edward R. Royce 
(chairman of the subcommittee) presiding.
    Mr. Royce. This hearing of the subcommittee will come to 
order. Today the subcommittee examines the State Department's 
rewards programs and proposals for the expansion of that 
program. The State Department currently runs three different 
programs which offer reward money.
    There is the Rewards for Justice, Narcotics Rewards, and 
the War Crimes Rewards programs. Monetary awards are offered to 
those individuals who come forward, often at great personal 
risk to provide information that helps locate and capture 
terrorists or drug traffickers or certain wanted war criminals.
    The terrorism rewards program, which dates back to the 
Reagan administration and the bombing at the Beirut Embassy, is 
the most recognized of the three. Besides paid newspaper and 
radio spots, the program uses billboards, it uses posters and 
flyers to publicize reward offers, and given the prominence of 
smoking overseas, they also use matchbooks, such as these, 
which are distributed among the people. Several years ago, the 
program faced some criticism that its publicity campaigns were 
poorly constructed. So we look forward to hearing today about 
how that has changed.
    As we will hear today, all three programs can point to some 
significant victories. Terrorism rewards helped locate and put 
Ramzi Yousef behind bars. The Narcotics Rewards Program helped 
nab FARC commanders in Colombia and drug traffickers operating 
from Venezuela and Thailand. The war crimes programs have led 
to the arrest of some of the worst war criminals.
    A reward on your head creates for the individual 
significant angst. As the State Department will testify, one 
captured narcotics target told the DEA that he could no longer 
trust anyone in his organization after a $5-million reward was 
offered. He felt, he said, ``like a hunted man.'' And given the 
destruction many of these characters do to the globe and to the 
people in their country, this is money well spent.
    But we live in a much different world than the one of the 
1980s when these programs were first designed. Today 
transnational criminals are diversifying. And they are looking 
to sell anything to anybody. It could be arms. It could be 
intellectual property. It could be people. And one such arms 
trafficker was Viktor Bout, who supplied weapons to insurgents 
on both sides of the war, to militias, to terrorists around the 
world until his conviction in Federal Court. Reportedly the 
Narcotics Rewards Program helped to bag the ``merchant of 
death,'' as he was called, Viktor Bout.
    The overlap between the networks employed by criminals and 
employed by terrorists is growing. To keep pace, I have 
introduced legislation, H.R. 4077, cosponsored by Ranking 
Member Sherman and subcommittee member Poe, that would target 
transnational organized crime figures with a rewards program. 
Just as important, the legislation allows the rewards program 
to target those who are wanted for genocide or war crimes or 
crimes against humanity. In other words, the world's worst 
human rights abusers.
    A likely target of this new war crimes authority would be 
Joseph Kony and the top commanders of the Lord's Resistance 
Army. This group has terrorized northern Uganda and Central 
Africa for two decades with unspeakable crimes. In accordance 
with U.S. policy, a small team of U.S. troops are currently in 
the field helping local forces hunt down the individual who has 
captured over 30,000 children over the years. The women and 
girls he turned into concubines; the boys, into child soldiers. 
Our U.S. troops believe a rewards program aimed at Kony could 
bolster their efforts. That could generate the intelligence and 
that could boost the defections, and that could assist, because 
the ultimate work here is going to be undertaken by the Ugandan 
forces, who will basically either remove Kony from the 
battlefield and bring him to the bar of justice one way or the 
other.
    This subcommittee looks forward to the testimony today and 
advancing this important legislation to the House floor. I will 
now turn to Ranking Member Sherman for his opening statement.
    [The prepared statement of Mr. Royce follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Sherman. Thank you, Mr. Chairman, for holding this 
hearing on examining the State Department's reward program and 
how those programs can be expanded.
    The State Department currently runs reward programs in 
three areas: The reward for justice program, focused on 
terrorism; the narcotics reward program; and the War Crimes 
Rewards Program, which targets war criminals subject to certain 
tribunals. I support the State Department's rewards programs, 
which have been effective in leading to the capture of some of 
the most reprehensible individuals. We save innocent lives. We 
save taxpayer money in the long run by rewarding those who give 
us information, often at great risk to themselves.
    I support expanding this program. I have cosponsored your 
bill, H.R. 4077, which is bipartisan legislation which would 
expand the program to target transnational organized crime and 
those wanted for the most serious human rights abuses, all for 
reasons you well explained in your opening statement.
    These efforts began, these programs began in the 1980s. The 
programs were designed by the diplomatic security agent who 
investigated the 1983 U.S. Embassy bombing in Beirut 
perpetrated by Hezbollah with direct help from Iran. The 
program was expanded to cover narcotics traffickers and some 
war criminals in the late 1980s. Today, rewards go up to $25 
million; $25 million is the reward for information leading to 
the capture or death of key al-Qaeda leaders, most notably bin 
Laden but also including Ayman al-Zawahiri. The most recent 
example of the State Department offering a terrorism reward was 
for Yasin al-Suri, identified as a key fundraiser for al-Qaeda.
    According to the State Department, al-Suri has operated out 
of Iran since 2005. He is supposedly under house arrest, but 
that may be a mistranslation; they may have meant special guest 
of Iran. And he is providing al-Qaeda network with 
transportation for operatives and access to money. Al-Zawahiri 
is one of three individuals the U.S. Government is offering a 
$10-million reward for. The other two are Mullah Omar, the 
Taliban leader in Afghanistan, and Abu Dua, the leader of al-
Qaeda in Iraq. And one of the questions I will ask of our 
witnesses is whether we should go even higher on those rewards 
or others.
    The State Department's Rewards for Justice Program focused 
on terrorism is the most recognized of the three rewards 
programs. The State Department, through the Secretary of State, 
may offer rewards for information leading to the arrest or 
conviction of anyone who plans or carries out acts of terrorism 
against Americans at home or abroad, that prevents such acts 
from occurring, that leads to the location of key terrorist 
leaders or disrupts terrorist financing.
    The State Department maintains a list of current reward 
offers on its Web site, which is now available in nearly 30 
languages. In addition to newspaper, radio, and TV ads in 
foreign media, the program utilizes billboards, flyers, 
postcards, and the well known matchbook cover. I see these 
matchbooks are in English, and I hope very much that a far 
greater number was created in Arabic, not that we need to worry 
about any of the three guys pictured on this particular 
matchbook at the present time. Many of us have seen these 
matchbooks, and this is one of many creative ways to reach out 
to those who may seek the reward.
    The State Department takes measures to protect the identity 
of a reward recipient's program and the recipient's immediate 
family. Of course, the State Department must report to Congress 
the total amounts spent on the program. Reward payments are 
often not publicized, and those who receive them are eligible 
for participation in the U.S. Witness Protection Program. I 
look forward to hearing from our witnesses whether an explicit 
offer of a U.S. visa for a family or even an extended family 
should be part of certain posted rewards. No one--a lot of 
people want money, very few want a death sentence, and they may 
have some such in their home country.
    I am going to skip ahead to a discussion of the chairman's 
legislation. The Department of State Rewards Program Update and 
Technical Corrections Act of 2012, this would expand the reward 
programs to confront international organized crime and those 
wanted for the most serious human rights abuses. The chairman's 
bill would allow the State Department to pay for information 
leading to the arrest or conviction of individuals engaged in 
international or transnational organized crime or the 
prevention or disruption of related criminal activities. The 
State Department officials have identified the lack of 
authority to target organized criminals with rewards as a major 
gap in the counterterrorism efforts.
    The bill would also allow the department to use the rewards 
program to target others indicted by international hybrid or 
mixed tribunals for the most serious human rights abuses, 
including genocide, war crimes, and crimes against humanity. 
Once again, Mr. Chairman, I commend you for this legislation. 
Happy to cosponsor it, and I look forward to hearing from our 
witnesses.
    Mr. Royce. Thank you. Any other opening statements?
    Mr. Connolly, would you like to say a few words?
    Mr. Connolly. Thank you, Mr. Chairman.
    The 1984 Act to Combat International Terrorism established 
the State Department's Rewards For Justice Program, one of 
three rewards programs the State Department administers. The 
law allows the Secretary of State to authorize rewards for 
information that lead to the arrest or conviction of anyone who 
plans, commits or attempts international terrorist acts against 
U.S. persons or property, prevents such acts from occurring in 
the first place, leads to the location of a key terrorist 
leader or disrupts terrorist financing. The rewards program has 
led to the apprehension of Uday Hussein, Qusay Hussein, and 
Ramzi Yousef, among others. In fact, since the inception of the 
Rewards for Justice Program in 1984, the U.S. has paid more 
than $100 million to 70 people who provided credible 
information to put terrorists behind bars or prevented acts of 
international terrorism.
    The RFJ is not the only rewards program in State's law 
enforcement tool kit. The Narcotics Rewards Program, also 
administered through the Bureau of International Narcotics and 
Law Enforcement at State, offers rewards of up to $5 million 
for information leading to the arrest and the conviction of 
major narcotics traffickers who operate outside of the U.S. 
Over $71 million has been awarded to individuals who provided 
such information leading to the arrest or conviction of major 
narcotics traffickers.
    Last is the War Crimes Rewards Program, which the State 
Department's Bureau of Diplomatic Security administers in 
conjunction with the Office of Global Criminal Justice. This 
program is designed to bring to justice fugitives sought by the 
U.N. International Criminal Tribunals for the former Yugoslavia 
and Rwanda.
    Through the introduction of H.R. 4077, Chairman Royce has 
proposed expanding the State Department's rewards programs to 
confront transnational organized criminals and individuals 
wanted for the most recent human rights abuses. An example of 
somebody who might be targeted under such a proposed expansion 
is Joseph Kony, head of the Lord's Resistance Army in East 
Africa. It sounds like a commonsense expansion of the program, 
especially given the committee's record on Joseph Kony. I look 
forward to hearing more about the bill, including our 
witnesses' thoughts on how expanding the program might 
facilitate their mission.
    And I thank you, Mr. Chairman, for your leadership. I yield 
back.
    Mr. Royce. Thank you, Mr. Connolly.
    We are joined today by three representatives from the State 
Department. First is Mr. Robert Hartung. He serves as assistant 
director for the Threat Investigations and Analysis Directorate 
in the Bureau of Diplomatic Security. In this capacity, he 
oversees all diplomatic security programs that analyze or 
investigate or disseminate information on threats directed 
against U.S. diplomatic personnel around the world.
    Before becoming a diplomatic security special agent back in 
1985, he worked as a staffer to former Senator Paul Trible of 
Virginia.
    Ms. Brooke Darby is the Deputy Assistant Secretary of State 
in the Bureau of International Narcotics and Law Enforcement 
Affairs. During her career, she has been responsible for 
numerous programs in the bureau, including the Criminal Justice 
Capacity Building Program in the Balkans, the program in 
Afghanistan, and the one in Iraq. She has also served on the 
National Security Staff. We welcome her.
    And we have Ambassador Stephen Rapp, who heads the Office 
of Global Criminal Justice. Prior to his appointment, he served 
as prosecutor of the Special Court for Sierra Leone, leading 
the case against Charles Taylor. During his time serving in the 
International Criminal Tribunal for Rwanda, he led the team 
that won the first convictions in history for public incitement 
to commit genocide via the media, the hate broadcasts that were 
broadcast out over Rwanda. So it is good to see the Ambassador 
again. I might add, we are awaiting the announcement of the 
Charles Taylor verdict, hopefully in April. It is slated to 
come down, and it is about time.
    So we thank our witnesses all for being with us. I will 
remind them that their complete testimony will be included in 
the record. So if they keep their oral presentation to 5 
minutes, that would be appreciated by the committee. We will 
then go to questions.
    So we will begin with Mr. Hartung. Thank you.

STATEMENT OF MR. ROBERT A. HARTUNG, ASSISTANT DIRECTOR, THREAT 
 INVESTIGATIONS AND ANALYSIS DIRECTORATE, BUREAU OF DIPLOMATIC 
               SECURITY, U.S. DEPARTMENT OF STATE

    Mr. Hartung. Chairman Royce, members of the subcommittee, 
good afternoon.
    I am honored to appear before you today to discuss the role 
that the Bureau of Diplomatic Security plays in the fight 
against international terrorism through its Rewards for Justice 
Program. I would like to thank you for your continued support 
and interest in our program, as this collaboration helps enable 
Diplomatic Security fulfill its worldwide mission.
    Operating from a global platform in 25 U.S. cities and 159 
foreign countries, the Bureau of Diplomatic Security, or DS, 
ensures that our country can conduct diplomacy safely and 
securely while assuring the integrity of our borders. DS plays 
a vital role in protecting U.S. Embassies and personnel 
overseas, investigating passport and visa fraud, securing 
critical information systems, and fighting terrorism.
    To this end, Diplomatic Security's counterterrorism rewards 
program, known as RFJ, is considered by the Department of State 
to be one of the U.S. Government's most valuable assets in the 
fight against international terrorism. The mission of the 
program is to prevent terrorist acts, to disrupt terrorist 
planning, and to bring terrorists to justice in a court of law, 
U.S. or foreign.
    The secondary goals of the program are also important, to 
deter terrorist operations, to decrease geographic safe havens 
for terrorists, and to restrict terrorists' freedom of 
movement.
    Rewards may be paid to individuals who provide information 
leading to the arrest or conviction of those conspiring, 
attempting, or committing an act of international terrorism 
against U.S. persons or property or those aiding or abetting in 
the commission of such acts. A reward may also be paid for the 
information that prevents such acts from occurring in the first 
place, for information identifying or locating those holding 
key leadership positions in a terrorist organization, and for 
the disruption of the financial mechanisms of a foreign 
terrorist organization.
    Since the program began in 1984, RFJ has garnered a number 
of successes throughout the years. RFJ has paid over $100 
million to more than 70 individuals who have provided vital 
information.
    Although the program's efforts are often classified for the 
safety of its participants, I can share some of its landmark 
cases with you today. In 1995 RFJ paid a $2-million reward to a 
source that provided information to Diplomatic Security special 
agents in Pakistan for the location of Ramzi Yousef, mastermind 
of the 1993 World Trade Center bombing. Pakistani authorities, 
assisted by Diplomatic Security agents, arrested Yousef in 
Pakistan and extradited him to the United States. He is 
currently serving a life sentence in prison in Colorado.
    In 2003, RFJ paid a $30-million reward for information on 
the exact whereabouts of Uday and Qusay Hussein. The 101st 
Airborne Division conducted an operation to capture these 
individuals. A 4-hour fire fight ensued, which resulted in the 
deaths of the two brothers. In this instance, an RFJ campaign 
was initiated, and in 18 days, the source came forward, the 
fastest result in RFJ history.
    And in 2007, the program paid a $10-million reward to 
courageous Filipino citizens who provided information on the 
locations of Abu Sayyaf group leaders, Khadaffy Janjalani and 
Abu Solaiman. These two notorious high-ranking leaders of the 
Abu Sayyaf group were killed by the armed forces of the 
Philippines as a result of information provided by the sources.
    Last year, DS generated four new reward offers. These 
offers were for the following individuals: Harakat-ul-Jihad al-
Islami leader Ilyas Kashmiri; North Caucasus based Caucasus 
Emirate senior leader and military commander, Doku Umarov; al-
Qaeda in Iraq leader Abu Dua; and Yasin al-Suri, a senior al-
Qaeda facilitator and financier based in Iran. RFJ's $10-
million reward offer for al-Suri was the first made for a 
terrorist financier.
    As is evident, Mr. Chairman, the DS Rewards for Justice 
Program is and will remain a valuable asset to the U.S. 
Government in its fight against international terrorism. RFJ's 
mission to prevent terrorist acts, disrupt terrorist financing, 
and bring terrorists to justice remains paramount. RFJ is 
engaging new media, new partners, and developing new practices 
in its effort to meet the challenging security situation we 
face in the ever-changing world. Every day, in all corners of 
the globe, the men and women of the Bureau of Diplomatic 
Security continue to work tirelessly to bring terrorists to 
justice.
    Mr. Chairman, thank you for the opportunity to appear 
before you today, and I would be pleased to answer any 
questions you may have.
    Mr. Royce. Thank you for your testimony.
    [The prepared statement of Mr. Hartung follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Royce. Ms. Darby.

 STATEMENT OF MS. M. BROOKE DARBY, DEPUTY ASSISTANT SECRETARY, 
BUREAU OF INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT AFFAIRS, 
                    U.S. DEPARTMENT OF STATE

    Ms. Darby. Chairman Royce, Ranking Member Sherman, and 
members of the subcommittee, thank you for the invitation to 
discuss the Department of State's Narcotics Rewards Program, 
how it helps to bring major violators of U.S. narcotics 
trafficking laws to justice, and your legislation to expand the 
reach of our rewards program to capture other transnational 
criminals.
    The Bureau of International Narcotics and Law Enforcement 
Affairs, INL for short, which I help to lead is well known for 
our efforts to build the capacity of foreign governments to 
fight crime. We also administer key anticrime tools like the 
Narcotics Rewards Program.
    Let me start where the Narcotics Rewards Program began and 
then tell you a bit about how it works. In 1986, Congress 
authorized the Secretary of State to offer rewards for 
information leading to the arrest or conviction of major 
narcotics traffickers outside the United States. The rewards 
program quickly proved to be a valuable tool for U.S. law 
enforcement, helping to develop critical information on key 
targets as well as putting pressure on drug trafficking 
organizations, disrupting their activities, and leaving them 
more vulnerable to law enforcement efforts.
    Every step of the program is closely coordinated with U.S. 
law enforcement agencies who serve on the Narcotics Rewards 
Program committee, and in fact, the program operates from the 
field up. Generally U.S. Federal agents working overseas 
propose that the program target a fugitive from justice that 
they are working to apprehend. The program committee validates 
each request in Washington and develops an approach to 
publicize a reward where appropriate.
    When an informant's information has proved useful to U.S. 
Federal agents, the agents can submit a request that a reward 
payment be made to the informant. The Interagency Review 
Committee then weighs a variety of factors, including the 
importance of the trafficker targeted, the role played by the 
informant, details of the arrest or interdiction operation, 
risks taken by the informant to assist in effecting the arrest 
or interdiction, and the suggested reward amount.
    If the Secretary of State agrees with the committee's 
recommendation to pay the informant, the Secretary will then 
seek concurrence of the Attorney General before transferring 
any funds to the U.S. law enforcement agency managing the 
informant.
    INL has developed a rigorous certification process for law 
enforcement to validate and confirm when payments have been 
made. We then notify Congress in classified form of each reward 
payment before closing our case file. The Narcotics Rewards 
Program has helped to bring many important narcotraffickers to 
justice. One example is Arturo Beltran-Leyva and members of his 
organization, who not only distributed shipments of hundreds of 
kilograms of narcotics to the United States but also were 
culpable for the rising violence just south of our border in 
Mexico. That organization is now in shambles as a result of 
successful law enforcement operations, informed by our program, 
to take down the head and other members of the organization.
    In some cases, the perceived or actual threat from the 
publication of a reward has driven criminals to seek protection 
from U.S. law enforcement, and as you mentioned, Mr. Chairman, 
one captured trafficker, who was the subject of a $5-million 
advertised reward, told DEA agents that after he was sought by 
the Narcotics Rewards Program, he began to distrust everyone. 
And his ability to maintain control of his organization was 
diminished, and he felt like a hunted man.
    Our U.S. and foreign law enforcement partners recognize the 
Narcotics Rewards Program is a valuable tool to help bring drug 
traffickers to justice and disrupt their operations. Since 
1986, however, transnational criminals other than narcotics 
traffickers have escaped the reach of the rewards program. On 
July 25th, President Obama introduced a National Strategy to 
Combat Transnational Organized Crime, which describes the 
significant and evolving threat to the United States and the 
global community that these transnational criminals pose and 
advocates for additional tools to counter the threat.
    The legislation that you have introduced, Chairman Royce, 
and that you have cosponsored, Congressman Sherman, is such a 
tool.
    By updating the successful rewards program to include 
transnational organized crime targets, you will extend the 
reach of justice to major criminals who have transcended 
borders with near impunity. These criminals victimize Americans 
through Internet crimes, launder money, traffic arms and 
people, and pirate America's intellectual property. To 
illustrate the impact of these illicit activities, in an 
average year, the United States seizes hundreds of millions of 
dollars in counterfeit goods, estimated to be a mere fraction 
of what is produced worldwide and imported for sale into the 
United States.
    Counterfeit products wreak havoc on our economy and, in 
some cases, such as counterfeit pharmaceuticals, jeopardize the 
health and safety of our citizens.
    Under the President's strategy, we are committed to 
pursuing transnational organized criminals and their networks 
wherever they hide across the globe. Our Treasury Department 
has already designated four major transnational criminal 
organizations, the Yakuza, the Brothers Circle, Los Zetas, and 
the Camorra for financial sanctions. With your support, a 
future transnational organized crime rewards program could help 
U.S. law enforcement do much more, dismantle these networks and 
apprehend those who lead them.
    Chairman Royce, Ranking Member Sherman, and members of the 
subcommittee, thank you for your interest in and support of 
this important initiative to help our Nation combat 
transnational organized crime. I look forward to working with 
you to advance your legislation to provide new tools to counter 
transnational crime and protect our national security 
interests.
    Mr. Royce. Thank you, Ms. Darby.
    [The prepared statement of Ms. Darby follows:]
 
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Royce. Ambassador.

   STATEMENT OF THE HONORABLE STEPHEN J. RAPP, AMBASSADOR-AT-
            LARGE, OFFICE OF GLOBAL CRIMINAL JUSTICE

    Ambassador Rapp. Mr. Chairman, members of the subcommittee, 
I would like to thank you and the subcommittee members for your 
continued support and interest in the U.S. Department of 
State's rewards program.
    We welcome the legislation that you have introduced, H.R. 
4077, which would allow the Department of State to better use 
these programs to pursue and help bring to justice individuals 
who have committed acts of genocide, war crimes, and crimes 
against humanity.
    The current War Crimes Rewards Program has been 
instrumental in bringing to justice some of the most notorious 
and brutal fugitives sought by the United Nations International 
Criminal Tribunals for Yugoslavia, the ICTY, and for Rwanda, 
the ICTR. In the last 2 years alone, we have made 14 payments 
at an average of $400,000 per payment, ranging from $75,000 to 
$2 million for information leading to the arrest and conviction 
of these fugitives.
    This program has been and continues to be very successful 
in generating information that has led to the arrest of the 
world's worst criminals.
    However, the present statutory authority of the War Crimes 
Rewards Program is limited to fugitives from the ICTY and ICTR 
and the Special Court for Sierra Leone. From these tribunals, 
which indicted more than 250 people, there remain only nine 
targeted fugitives at large, all from the Rwanda tribunal. 
After the capture of these fugitives, this program will cease 
to be useful as a tool to ensure accountability.
    The State Department would like to expand this program to 
bolster our ongoing efforts to bring other alleged war 
criminals to justice.
    The proposed legislation, sponsored by you, Mr. Chairman, 
would do just that. It would authorize the Secretary of State 
to publicize and pay rewards for information leading to the 
arrest and conviction of specifically identified foreign 
nationals accused of war crimes, crimes against humanity or 
genocide before any international criminal tribunal, including 
hybrid or mixed courts.
    Let me be clear: Under the proposed authority, fugitives 
would only be added to the rewards program after careful review 
and approval by an interagency committee and the Secretary of 
State or designee. This is similar to the interagency committee 
that now makes the decisions about the amounts of rewards to be 
granted and that makes decisions about selection of individuals 
upon which rewards may be provided in the terrorism and 
narcotics programs. This committee would have representatives 
of the State Department, DOD, DOJ, DHS, and the intelligence 
community.
    I want to focus on a few specific cases where this 
authority would help our foreign policy objectives. You, Mr. 
Chairman, mentioned the case of Joseph Kony of the Lord's 
Resistance Army. As you noted, for two decades, he has carried 
on a campaign of murder and terror and the abduction and 
brainwashing of women and children; the women to become sex 
slaves, the boys to become fighters. The U.N. estimates that 
some 465,000 people were displaced or living as refugees across 
three countries in 2011 as a result of the LRA threat.
    The International Criminal Court has issued arrest warrants 
for Joseph Kony and other top LRA leaders on charges of war 
crimes and crimes against humanity, and although the United 
States is not a party to the Rome statute establishing the ICC, 
we support the ICC's efforts to bring the LRA leaders to 
justice and believe they could be apprehended and held to 
account for their actions.
    You mentioned the group of U.S. military advisers, 
consistent with the LRA Disarmament and Northern Uganda 
Recovery Act, that have now been deployed in Central Africa and 
are working with our partners, particularly the Ugandans, but 
other forces as well in LRA-affected areas, helping to enhance 
the capacity to bring these top commanders to justice.
    The proposed expansion of the program would bolster our 
efforts to generate information about the whereabouts of Joseph 
Kony and other LRA commanders by giving lower level fighters a 
material incentive to provide information. If Kony and other 
commanders were added to the programs through the interagency 
process I described, we could work to publicize the rewards 
using leaflets, radio broadcasts, and other publicity tools, 
like we have done with other fugitives.
    Another individual is Abdullah al-Senussi, the head of, the 
former head of Libyan military intelligence, who was the head 
of one of the most powerful and efficient organs of repression 
in Libya. And he is wanted by the ICC for his alleged 
responsibility for crimes against humanity committed last 
February. It has been reported that he has fled Libya, and he 
is in hiding.
    Of course, this will allow rewards not just in ICC cases 
but to any court that has international presence as a mixed 
court or hybrid tribunal. It will be crime-specific, not court-
specific, and as required under our ASPA law, our American 
Service members Protection Act, it will be consistent with that 
and being a case-by-case determination that is allowed by ASPA 
where we can provide assistance to international justice.
    The War Crimes Rewards Program, at the moment, we are 
advertising rewards up to $5 million, although rewards up to 
$25 million could be paid in exceptional cases, but as I note, 
the average amount is some $400,000, and the amount of the 
reward depends upon a number of factors, including which war 
criminal is apprehended, the quality of the assistance 
provided, and the risk taken by the informant. We believe that 
the funding for the rewards authorized by this new legislation 
could be provided through currently available resources and 
transfer authorities.
    In conclusion, Mr. Chairman, the War Crimes Rewards Program 
is and we hope will remain a valuable asset to the U.S. in its 
fight to ensure that foreign nationals who commit serious 
violations of international humanitarian law are held to 
account, and we will continue to work tirelessly to bring these 
perpetrators to justice. We thank you for the opportunity to 
appear before you and to thank you for your continued 
leadership in this area.
    Mr. Royce. Thank you, Ambassador.
    [The prepared statement of Ambassador Rapp follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Royce. I think it was back in 2004 that we commissioned 
some studies to look at the media to see how we could better 
utilize technology in order to bring people to the bar of 
justice through this rewards program. I would ask if there has 
been thought since then--well, first, let's just maybe review 
what the studies told us, but now with the advent of social 
media, maybe some thoughts on how that could be deployed in 
order to assist worldwide in these efforts. Could I get some 
responses to that?
    Ambassador Rapp. Yeah, I certainly agree with you, Mr. 
Chairman, we don't want to die with the secret that we have 
these rewards on offer. And I have been involved in getting the 
message out in Central Africa through community radio and other 
media that people have access to there. But I think we need to 
leave no stone unturned to make sure that people are aware of 
these rewards, and we use every possible media that is 
effective with a specific population.
    Mr. Royce. One of the thoughts I have on this is the host 
government cooperation used to be needed. In 2010, I know that 
VOA began the process of actually broadcasting and could 
effectively do that whether or not you had the host government 
in support.
    Well, as you begin to look at the use of social media, 
again, you have the ability to work around whether or not the 
state thinks it is important to track down the Viktor Bouts of 
the world, and so I would appreciate any observations on that 
methodology.
    Ambassador Rapp. Well, we would certainly be supportive of 
that, and we will be glad to follow up and report to you, but I 
think the social media--I mean, it is true that throughout the 
world, even in areas where electric power isn't necessarily 
reliable, people are having access to the Internet, there are 
hundreds of millions of subscribers to these sites. And we want 
to make sure that we get the information out there and that 
people understand it.
    Mr. Royce. Do you have any thoughts on that, Ms. Darby?
    Ms. Darby. Only to say that we absolutely agree that we 
need to use all of the publicity tools at our disposal, and 
that is an excellent recommendation and one we definitely will 
take into account.
    Mr. Royce. One of the things I have thought about also is 
from a diplomatic aspect, when dealing with host countries, we 
have longstanding relationships with, you know, maybe countries 
like Italy where the Cosa Nostra is operating and no 
opposition, but when we begin to talk about organized crime, 
international, transnational organized crime operating out of 
Russia or operating out of China, you can run into a situation 
in the State Department where if you are overt, are you rocking 
the boat vis-a-vis the relationship with Russia and so forth.
    On the other hand, with these additional technologies that 
might be available to us, there is a way to get at the target 
without confronting the state, but I would just ask you, any 
experience in the past with resistance in the State Department 
to rocking the boat, if you will? I watched the reaction on the 
part of the Russian Government just over this Viktor Bout 
issue, and it truly was extraordinary the lengths they went to, 
to try to suppress his apprehension, his transfer to custody, 
his conviction, so I know that some of these figures have their 
own supporters in certain host governments, and it has 
complicated efforts to bring them to justice.
    Mr. Hartung. If I just may add, with social networking, in 
December, we held a press conference at the State Department 
with the Department of Treasury on announcing that Yasin al-
Suri would be added to the list of the Rewards for Justice 
Program, and at that time, working with an office within the 
Department of State, we actually tweeted that information. So 
we started using social network, and also we partnered with 
Voice of America. As part of one of their broadcasts that goes 
into Iran and other countries in the region, we conducted a 
short interview with that program, and that has since been 
broadcast in that region, and we are now exploring the use of 
Facebook to get the message out even further.
    Mr. Royce. One of the interesting aspects of Ms. Darby's 
testimony, and I think you all might agree, is the way in which 
the aspect of feeling hunted, being hunted, if you are a 
transnational, if you are a criminal, can cripple an 
organization, the idea that you can't depend upon the people in 
your organization, in your operation because whatever you are 
paying them, it is not this amount of money. And so someone 
could turn on you.
    I was going to ask in terms of the applicability of that to 
transnational organized crime beyond the example you gave us, 
which was a drug cartel, if you could give us your thoughts on 
that.
    Ms. Darby. Certainly, Mr. Chairman.
    That is absolutely true. I mean, one of the benefits of 
rewards is to encourage informants to come forward, obviously, 
but the other chief benefit of a rewards program is disrupting 
the operations of these drug trafficking organizations, and 
with the new proposal on the table, transnational organized 
criminal organizations, forcing them to change the way they do 
business, which leaves them more vulnerable to law enforcement 
efforts to go after them. So absolutely, we would agree.
    Mr. Royce. Thank you. I think my time has expired.
    I will turn to Mr. Sherman.
    Mr. Sherman. Thank you.
    In the imagination of a few nationalists in Islamabad, 
everyone in Pakistan speaks Urdu. In reality, the Punjabi and 
Sindhi languages are spoken by far more people than Urdu. Are 
you reaching out in Pakistan only in the Urdu language or are 
you equally reaching out to Punjabi and Sindhi and Baloch, for 
that matter, or do you know? If you don't know, tell me you 
don't know, and I will make you answer for the record.
    Mr. Hartung. Through Rewards for Justice, we reach out in 
all languages in Pakistan. Now, we do not have a program 
specifically----
    Mr. Sherman. It can't be all languages.
    Mr. Hartung. Well, not--the main primary languages.
    Mr. Sherman. So you are doing as much in Punjabi and Sindhi 
as you are doing in Urdu?
    Mr. Hartung. Well, let me backtrack a little bit. We do not 
have a post-specific program in Pakistan, but we do have a 
program----
    Mr. Sherman. What does it mean you don't have a post-
specific program?
    Mr. Hartung. Well, in some countries, like Afghanistan, we 
have partnered with the government to undertake an 
advertisement campaign in that country. We have not done that 
in Pakistan.
    Mr. Sherman. So you are saying you don't advertise in 
Pakistan because----
    Mr. Hartung. No.
    Mr. Sherman. Or you just don't--it is just not a 
cooperative effort?
    Mr. Hartung. We advertise as far as our global program.
    Mr. Sherman. What are you doing to advertise in Pakistan 
and in what languages?
    Mr. Hartung. I know we push information on our Web site in 
the primary languages. I can get you the information about how 
that is divided up and into what languages.
    Mr. Sherman. Other than Web site, what are we doing to 
inform Pakistanis?
    Mr. Hartung. We do not have a program in Pakistan, sir.
    Mr. Sherman. Wow.
    Mr. Hartung. In order to----
    Mr. Sherman. Is there a country where there are more--well, 
I guess you could also argue about Iran. But can you name many 
countries where there are more terrorists bent on killing 
Americans?
    Mr. Hartung. In order to have that program in Pakistan, we 
need the permission of the Government of Pakistan to operate 
within that country.
    Mr. Sherman. Have we asked--okay, have we publicized to the 
American people that a country getting over $1 billion in 
American aid is prohibiting us from distributing matchbooks?
    Mr. Hartung. I am not aware of that, sir.
    Mr. Sherman. Well, perhaps this hearing could illustrate 
that and could be added to the list of things we would expect 
to change. What formal action has been taken to ask the 
Pakistani Government, if not for their help, at least for their 
permission to buy advertising in local media outlets, to 
distribute matchbooks or whatever? Can you tell me what has 
been asked for?
    Mr. Hartung. I do not have that information.
    Mr. Sherman. Okay, so the first question for the record is 
in what languages do you have the Web page, which, you know, I 
know the whole world is being wired, but you are here showing 
us the matchbooks. These guys are all dead. The guys that are 
still alive are mostly in Pakistan, and you don't do the 
matchbooks in Pakistan. So you will want to respond for the 
record.
    Have we hit--have we pushed the Pakistanis hard? Have 
they--is it illegal for us to distribute matchbooks in 
Pakistan? If so, are we doing it in other languages?
    Speaking of matchbooks, I assume that these were in Arabic 
as well?
    Mr. Hartung. That is correct.
    Mr. Sherman. Okay. Now, it occurs to me and everyone that 
folks getting these rewards might find their country of origin 
to be a dangerous place. Does the State Department have the 
legal authority to provide visas as part of the reward, visas 
to live in the United States?
    Mr. Hartung. All of our rewards, the information that is 
advertised indicates that we are willing to relocate the person 
who provides us the information or family members if it is 
determined that their lives may be in danger. We have worked--
--
    Mr. Sherman. But there is no guarantee that if you provide 
the information, the State Department will reach that 
conclusion. Let's say you do determine that their lives are in 
danger and you find that no other country wants to give them 
refuge, do you have the authority to give them permanent visas 
to live in the United States?
    Mr. Hartung. We have actually had cases where we have 
worked with, for example, with the FBI and the Department of 
Justice where visas have been issued to the individuals who 
have provided us information.
    Mr. Sherman. But if we really provided the fine print on 
the Web site the way you would in a securities offering, we 
would have to asterisk and say whether or not we help you avoid 
death is subject to our sole determination as to whether you 
are in danger, and whether or not we can let you live in the 
United States, even if we think that is necessary for your 
protection, is subject to the determination of other agencies. 
I don't recommend necessarily that you put that on the Web 
site, but are both those statements true?
    Mr. Hartung. We work--the examples I gave are other 
agencies that we have worked with that we have issued for those 
individuals to come to the United States.
    Mr. Sherman. But, first, if the person feels they are going 
to get killed and you don't agree with them, they are not 
getting a visa, even if they are getting the reward; and even 
if you think they are going to get killed, if you can't 
persuade other agencies to give them a visa, they are not 
getting a visa.
    Mr. Hartung. No, the visa would be issued by the Department 
of State.
    Mr. Sherman. Okay. So you work with those other agencies--
--
    Mr. Hartung. We do work with them.
    Mr. Sherman. But you have the final determination; if 
somebody convinces State that they are going to get killed, you 
have the authority to do that?
    Mr. Hartung. We have our Intergovernment Rewards Committee 
that is made up of various U.S. Government agencies, law 
enforcement, intelligence, military, DoD, and that information 
is discussed, and that determination is made.
    Mr. Sherman. Please get back to me soon on Pakistan, how 
hard have we pushed? What is the official slam the door, not 
just to cooperation, but even to allowing us? I mean, I can buy 
an ad in a Pakistani newspaper selling a motorcycle, but 
apparently, you can't buy one selling a reward. And so let's 
see, what have we asked for? What has been the response? How 
hard have we pushed? And what languages are we doing this Web 
site in, although if it is just a Web site, it is pretty much a 
secondary question? I yield back. I thank the chairman for the 
additional time.
    Mr. Royce. We appreciate that.
    If we go to the Basic Authorities Act, Section 36, 
paragraph (e)(5), the sense of it, as written, is if the 
Secretary determines that the identity of the recipient of the 
reward or members of the recipient's immediate family must be 
protected, the Secretary may take such measures in connection 
with the payment of the reward as the Secretary considers 
necessary to effect such protection. But it is my understanding 
that in the past, there are a number of cases where that, in 
fact, has taken place, but as we work out the final language, 
if there is any additional thoughts on that, we would be happy 
to work with the department.
    Let's go to Mr. Connolly for his questions.
    Mr. Connolly. Thank you, Mr. Chairman.
    Mr. Hartung or Ambassador Rapp--and welcome to all three of 
you--were any of these programs used in the identification of 
the location of Osama bin Laden?
    Mr. Hartung. The Rewards for Justice was not. I mean, we 
advertised through Rewards for Justice, but we did not pay a 
reward for information concerning Osama bin Laden.
    Mr. Connolly. Mr. Ambassador? You have no additional 
information?
    Ambassador Rapp. Nothing, no further information.
    Mr. Connolly. Ms. Darby, with respect to the program under 
your purview, obviously, we are growing increasingly anxious 
about what is happening in northern Mexico, the southern part 
of our border, with respect to narcotics traffickers and 
uncontained violence, violence against public officials, law 
enforcement officials with impunity. Has your program been used 
in a situation in northern Mexico, and if so, how so?
    Ms. Darby. Without getting into too much information on 
specific cases, I can tell you we certainly have used rewards. 
We have paid rewards and promoted, publicized rewards that have 
resulted in the bringing to justice of Mexican drug 
traffickers, for example Javier Arellano Felix, head of one of 
the most violent criminal drug trafficking organizations in 
Mexico, was the subject of one of our rewards and was brought 
to justice. So, yes, absolutely, sir.
    Mr. Connolly. And presumably, we are coordinating with the 
Mexican Government in the utilization of this program, among 
other levels of cooperation.
    Ms. Darby. I don't know the specifics of that, sir. I 
imagine that is the case, but we will get back to you with more 
detailed information on that.
    Mr. Connolly. I would appreciate that. Because it seems to 
me if one were just looking at the situation and one was aware 
of your program, this rewards program, one would think it could 
be a very useful tool in the kit bag. So I think we would like 
to know a lot more about, well, how, without in any way 
jeopardizing ongoing activities, but in general is it, in fact, 
effectively being deployed and, candidly, could it be expanded, 
because I think there would be, again, a fair amount of 
receptivity up here to doing just that given what is happening 
on our southern border?
    Ambassador Rapp, you talked about a range of between $5 
million and $25 million depending on certain circumstances in 
your testimony.
    Ambassador Rapp. What I said is our rewards have basically 
been between--the ones that I have dealt with in the last 2 
years, the 14, we have made an evaluation basically looking at 
$5 million as the maximum, and we have--and these have involved 
like 12 different fugitives, 14 rewards paid. We made an 
evaluation in terms of the level of the person that was being 
brought in, the risk, et cetera, and made the award 
accordingly. And, as I said, as we publicized the program and 
as it has been discussed at some length, we have viewed it as a 
$5-million program. We understand that we could have the 
capacity in the truly extraordinary case to go to $25 million.
    Mr. Connolly. Okay. And you have sort of answered my 
question, which is, how does one decide the range? You look at 
seriousness of the target and risk involved and so forth?
    Ambassador Rapp. You know, it is an--I mean, to some 
extent, some of the ones that we have had most recently have 
involved relatively lower level Rwandan individuals, certainly 
alleged to be responsible for very, very serious crimes, and 
then, you know, if we were--right now, for instance, there are 
three high-value fugitives of the Rwandan tribunal, the former 
head of the presidential guard, Protais Mpiranya, Felicien 
Kabuga, who was the head of hate radio, the chairman of it and 
the alleged financier of the genocide, the former minister of 
defense. If those individuals are brought in, they would be 
potentially higher value because of the crimes for which they 
are alleged and the level of responsibility they had. And then 
we would look at how much risk the individual took, what kind 
of risk they have, what kind of things they did in terms of it. 
There are seven factors under our analysis as we come up with a 
number.
    Mr. Connolly. Very helpful. Perhaps you could give us those 
seven factors for the record.
    In the very brief period of time I have left, I wonder if 
you could just--let's say I am in the bush with Joe Kony and I 
somehow hear about this program and I want to do the right 
thing, and I want to help bring Joe Kony to justice. I am a 
member of the LRA, and I am far away from the capital city 
perhaps and modern communications. Can you walk me through, 
what would such an individual have to do? What would be the 
process whereby that person might try to participate in the 
program and help us in our mutual goals?
    Ambassador Rapp. Well, obviously, to the extent you have 
people that are truly being compelled against their will as 
slaves and they have no access outside, indeed, it could be 
difficult. But people do periodically escape from Joseph Kony's 
control, that is one of the ways that we obtain some 
intelligence now. Now you have got another reason to get away 
when you hear about this and to reach places where you could 
make a phone contact with the sort of information that we would 
then provide to you, the sort of contact information that we 
provided in the case of the Yugoslavian and Rwandan tribunals, 
numbers you could call, that kind of thing. People do have 
access to cell phones even in some very remote areas of Africa. 
So there are ways to do that. And that information could be 
certainly then acted upon much more quickly because of this 
operation in which we are providing advisers in cooperation 
with the governments out there and helping with intelligence 
and logistics in order to be able to operate on that quickly 
and potentially get an arrest.
    Of course, our program is focused on arrests and transfer 
and eventual conviction, this we will pay if Mr. Kony or the 
other two commanders that are alive and that are also indicted 
are brought to justice, and then we will evaluate what it is 
worth. First, of course, I should note that if we do get the 
expansion that is proposed here, we will be making a 
determination about these other courts. In the past, we have 
just said anybody indicted by the Yugoslavia tribunal, Rwandan 
tribunal, we will pay a reward of some kind or another. If we 
get this authority, obviously, we are going to have to deal 
with whether we want to pay it in all ICC cases, in some ICC 
cases, whether the Bosnia war crimes court has some fugitives 
there that is a mixed chamber that we can pay in. We will make 
that determination in the committee. Then we will publicize it. 
Then we will provide the access in ways that people can use it. 
And then if we get success, we will pay it.
    Mr. Connolly. If the chair would allow one follow-up 
question, and hopefully it is a relatively brief answer, but 
how does it work operationally vis-a-vis the State Department 
here and the folks on the ground in Embassies and consulates 
abroad? Are they actively promoting this program, and do they 
make material available in whatever the local language may be, 
or do they leave that up to sort of headquarters?
    Ambassador Rapp. Well, I mean, we are involved with 
developing the materials and have contracts and work with 
people that can advise us on the most effective ways to do 
that, but I do want to salute Mr. Hartung's agency, the 
Diplomatic Security Bureau. We work very closely in all of our 
Embassies with the regional security officers, and those people 
are, frankly, in half a dozen Embassies regularly receiving 
information in our Rwanda program and evaluating and following 
it up and really then providing the real legwork in making this 
program work.
    So it is in Washington, but it is out in the field, and 
then whenever I am in an area where there may be fugitives, we 
are doing everything we can to show the posters, to interview 
about it, to talk about the fact that this is a real program 
and people are being paid.
    Mr. Connolly. Thank you so much.
    And Mr. Chairman, thank you for your indulgence, a very 
interesting topic, and I look forward to working with you on 
it.
    Mr. Royce. Thank you, Mr. Connolly.
    Ambassador, if we went back to the circumstances that we 
are talking about right now with respect to Joseph Kony, you 
have a situation where he has been indicted, where we have now 
passed legislation creating the wherewithal to bring him to 
justice, where we have passed legislation on disarmament, 
demobilization, reintegration. And one of the aspects of this 
that is interesting is the fact that there are increasingly 
ever larger numbers of defections.
    Now, if we turn back the clock to when he started as a war 
lord, there are a total of 65,000 children that he has 
abducted, but it is the use of technologies like mutilation 
that make him so feared, that create an environment in which 
people are fearful of coming forward. So if we create an 
incentive for people and if they know as part of this 
legislation that they and their immediate families will be 
protected, if they also know that these defections are on the 
increase so that they are not alone, they can see the fact that 
the day will come when Kony and the other senior commanders are 
brought to the bar of justice, then there is more than one 
reason why this program could be effective. I thought you might 
speak to the thoughts of the State Department in this and also 
the Department of Defense, which right now are working 
directly, under the legislation that we passed out of this 
committee, working directly with the Ugandan forces in order to 
retire this Lord's Resistance Army from the field and tell us 
why they are enthusiastic about these changes in the 
legislation which we seek to make with this bill.
    Ambassador Rapp. Well, I think you are quite correct, Mr. 
Chairman, that there are a lot of defections, there is a public 
campaign going on encouraging people to leave Kony. This would 
add, I think, a critical element in that because at the moment, 
if people defect, they are interested in their own situation. 
Obviously, they want to take advantage of perhaps going back to 
Uganda and perhaps not--having amnesty under the Ugandan law. 
They are looking out for their own interests after the horrible 
experience they have been through. This would add an element 
there where there would be a great incentive for them to 
provide information on where Kony was, what his favorite spots 
are, where he is likely to move, and to--and by doing that, if 
that leads to his arrest, give themselves the opportunity for 
substantial reward that can truly change the life of themselves 
and their family, and indeed as we note, I mean, if people are 
going to be at risk, we can work to relocate them, and we have 
worked in a variety of ways, sometimes not relocation to our 
country, but to other places with the other reward programs 
that we have, and so we would--this would, I think, provide a 
real incentive to gather that information, to bring something 
useful in, and then for us to operate on it. And I think, as 
you note, AFRICOM, which is working on this in support of this 
military adviser mission in which we are partnering with 
regional forces, is extremely supportive of this legislation. 
And I think it could help make this operation a success.
    And in the case of Kony--I mean, there are other movements, 
where you may take out two or three people, and then somebody 
else pops up. I really do think if you take out Kony and these 
key commanders, that is the end of the LRA. This is a critical 
thing that we need to do.
    Mr. Royce. Thank you, Ambassador.
    Ms. Darby, did you want to make any remarks on that 
subject?
    Ms. Darby. I would just say that the U.S. Law enforcement 
community is very excited about the prospect of having this 
tool. They have seen how effective the Narcotics Rewards 
Program, in particular, has been in helping them to capture 
criminals, bring them to justice, and they are very excited 
about the opportunity that is presented in your legislation.
    Mr. Royce. Thank you. I think this is an issue we can solve 
if we persevere on it.
    I want to thank our witnesses for appearing here today.
    I want also to mention, without objection, that members may 
have 5 legislative days to submit their statements and 
questions, and if you don't mind responding to any additional 
questions, that would be appreciated. So this hearing now 
stands adjourned.
    [Whereupon, at 4:11 p.m., the subcommittee was adjourned.]
                                     

                                     

















                            A P P E N D I X

                              ----------                              


                Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
